<html>
<title> - FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FROM THE U.S. SOUTHERN COMMAND</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





                         [H.A.S.C. No. 109-95]









                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2007

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                        FULL COMMITTEE HEARINGS

                                   ON

             BUDGET REQUEST FROM THE U.S. SOUTHERN COMMAND

                               __________

                              HEARING HELD

                             MARCH 16, 2006

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]











                     U.S. GOVERNMENT PRINTING OFFICE

33-790 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001































                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK E. UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                 Paul Lewis, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                  Catherine Steadman, Staff Assistant


























0                           C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, March 16, 2006, Fiscal Year 2007 National Defense 
  Authorization Act--Budget Request From the U.S. Southern 
  Command........................................................     1

Appendix:

Thursday, March 16, 2006.........................................    27
                              ----------                              

                        THURSDAY, MARCH 16, 2006
  FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE U.S. SOUTHERN COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Craddock, Gen. Bantz J., Commander, U.S. Southern Command, U.S. 
  Army...........................................................     4

                                APPENDIX

Prepared Statements:
    Craddock, Gen. Bantz J.......................................    31

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]

























 
  FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE U.S. SOUTHERN COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, March 16, 2006.
    The committee met, pursuant to call, at 9:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. This hearing will come to order.
    Our witness today is General Bantz J. Craddock, United 
States Army, Commander, the United States Southern Command.
    General Craddock, welcome back. Thank you for joining us 
this morning.
    General Craddock. Thank you, Mr. Chairman.
    The Chairman. For the last couple of years, the public's 
attention has been focused on the Middle East, for obvious 
reasons, but that should not distract us from national security 
issues in the rest of the world, our own hemisphere in 
particular.
    Developments in South America and other areas of the world 
are as crucial to our future security as the outcome of the war 
in Iraq and the war in Afghanistan. Fortunately, you recognize 
the challenges in your own area of responsibility (AOR) and are 
working to get ahead of any threats, even as Washington 
sometimes focuses its attention in other places.
    The U.S. Southern Command has been involved in combating 
narco-terrorists in Colombia for years. President Uribe, his 
government and the Colombian people, continue to be our allies 
and committed to this fight, which is a very welcome sign. We 
look forward to your remarks regarding this important ally and 
how things are progressing in Colombia.
    At the same time, other countries in Latin America continue 
to appear to be running against the tide of history. Venezuela 
continues to be led by a Castro admirer and is aggressively 
importing weaponry out of proportion to his needs and 
recklessly provokes the United States. Bolivia has a new 
government that may be on the tipping point in regard to their 
relationship with the United States.
    Several countries remain unstable or may become so soon, 
with Haiti and Cuba being of prime concern. Experts tell us we 
may have to send troops back to Haiti in the foreseeable 
future.
    We are also concerned about the unconventional threats in 
your area, including extremist groups and supporters of Islamic 
terrorist groups. As we have seen, so-called ``ungoverned 
spaces'' can become safe havens for terrorists. In addition to 
the terrorist groups, we are also concerned about the possible 
shipment of weapons of mass destruction through your AOR.
    We are interested to hear your thoughts on our facility in 
Guantanamo Bay. I visited there last year along with eight of 
my colleagues on the committee. I came away satisfied that the 
detainees are being treated humanely. I remember the comments 
of my colleagues as we finished touring Guantanamo. They were 
consistent with that. In our fiscal year 2006 defense 
authorization bill, we addressed concerns regarding the 
treatment of detainees.
    Additionally, the committee would like to follow up on your 
appearance before the committee last summer where you discussed 
interrogation tactics and the investigation you authorized by 
Lieutenant General Schmidt and Brigadier General Furlow.
    Finally, it has been brought to my attention that there are 
detainees being force fed at Guantanamo Bay, and we are 
interested to hear about the techniques being used for that 
procedure. I understand that that is in response to refusal to 
eat, hunger strikes, which if not treated will result 
ultimately in the death of detainees.
    General, you are on the frontlines dealing with threats to 
our security and reversing these threats before they result in 
a full-fledged attack on the security of the United States.
    We look forward to hearing how the United States Southern 
Command is addressing these challenges. We thank you for coming 
up. You have been before the committee many times. I just want 
to personally thank you for your service and hope you carry 
that message back to your command that this committee is very 
grateful for all of the men and women wearing the uniform and 
serving the Southern Command.
    So before we go to your statement, let me turn to my 
partner on the committee, the gentleman from Missouri, Mr. 
Skelton, for any remarks he would like to make.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you very much.
    General Craddock, we welcome you back. It is good to see 
you again, sir. Thank you for your leadership. We want to 
express gratitude to the troops that you lead.
    General, you are dealing with a very important region and 
many of America's critical allies are in this hemisphere, but 
there are many serious and emerging problems too, from 
terrorism, narcotics, arms trafficking, extreme states, to 
ungoverned spaces that leave room for instability.
    The breadth of the opportunities and challenges of this 
region argues for comprehensive and well-coordinated American 
strategy. I don't believe we have adopted that strategy as yet.
    One example of this that concerns me, and we discussed it 
last year, is the missed opportunities for military engagement 
in the region. Opportunities to build security relationships 
are seriously undermined by the restriction on International 
Military and Education Training (IMET) and other assistance 
imposed on those countries that do not comply with the American 
Servicemembers Protection Act. I supported that piece of 
legislation and its protection for our forces, but this 
government must find ways to allow military-to-military 
interaction to continue because that is where friendship and 
trust builds.
    Continuing our current policy not only weakens 
relationship, but its real strategic effects as well because 
China is filling every void we leave. General, you suggest that 
China is now actively pursuing stronger economic and military 
ties with a number of critical Latin American countries. At the 
same time, experts have indicated we know almost nothing about 
China's military and intelligence activities in the region. I 
hope you will elaborate on that.
    Let me turn to Colombia. As you know, I remain concerned 
about the role of the American military in that country. 
American investment in Colombia has been substantial, around $3 
billion in counter-narcotics and counterinsurgency since 1999. 
I am glad that we have been able to support President Uribe and 
the Colombian military against those guerrilla groups. I still 
question the sustainability of that effort and the strain on 
our forces.
    General, your statement indicates that you will be seeking 
an extension of authority to maintain the higher troop cap 
levels granted by our Congress in 2004. At that time, that was 
not an easy decision when it was made. I remember the argument 
being made that the additional personnel were needed to conduct 
training for a demanding phase of a planned patrol area. We are 
now two years later, and why the higher numbers of personnel 
are still needed? It is difficult to understand.
    Finally, I would like to mention the Southern Command's 
involvement in detainee operations at Guantanamo. As you know, 
the fiscal year 2006 defense bill included significant new 
legislation on the treatment and interrogation of detainees. I 
hope you will tell us about the impact of that legislation on 
the operations at Guantanamo.
    It is my sincere hope that this new legislation, 
particularly the McCain amendment, which we discussed at length 
over the last days of putting the bill together, will have a 
beneficial effect both for us, as well as around the world. We 
must watch the implementation of the judicial aspects of that 
bill carefully.
    I know, General, that there are many other important issues 
that we could discuss, including Venezuela's national and 
regional politics, recent events in Haiti, and testimony of 
your command before this committee that we must be prepared to 
deal with the possibility that weapons of mass destruction 
could move as cargo through the region.
    So we look forward to your testimony, and most of all, 
General, we thank you for your service.
    The Chairman. I thank the gentleman.
    General Craddock, good morning.
    General Craddock. Good morning, Mr. Chairman. Thank you, 
sir.
    The Chairman. Without objection, your entire written 
statement will be taken into the record. Feel free to 
summarize.

 STATEMENT OF GEN. BANTZ J. CRADDOCK, COMMANDER, U.S. SOUTHERN 
                       COMMAND, U.S. ARMY

    General Craddock. Thank you. I have some short opening 
remarks.
    Mr. Chairman, Ranking Member Skelton, distinguished members 
of the committee, thank you for the opportunity to report on 
the posture of the United States Southern Command, and thank 
you for the opportunity to submit my written statement for the 
record.
    The men and women of the United States Southern Command are 
doing a superb job. In keeping with the highest priorities of 
the nation, the members of the command continue to ensure the 
forward defense of the United States, encourage regional 
partnerships, and enhance stability and security throughout the 
region.
    In addition, Joint Task Force Guantanamo operations 
continue in support of our nation's long war against terrorism. 
Across the region, poverty, corruption, and inequality 
contribute to increased dissatisfaction with democracy and free 
market reforms. This has been accompanied by the growing 
popularity of leaders who profess to offer an alternative 
through anti-U.S. and anti-free-market rhetoric.
    We at the United States Southern Command believe the Andean 
region remains the linchpin to security and stability in Latin 
America and the Caribbean basin. Colombia, engaged in its own 
long war, over four decades now, has shown tremendous successes 
in its efforts to increase governance and security throughout 
its territory. Additionally, Colombia also experienced record 
drug eradications and interdictions, as well as extending 
government presence to every municipality in every department 
of the country.
    Continued U.S. support is essential to sustain and build on 
these gains, not only to achieve Colombia's ultimate victory, 
but also to ensure the stability of its neighboring countries.
    The threats facing this region did not develop overnight, 
nor can they be solved overnight. Shared security problems in 
the hemisphere require shared solutions. Ungoverned spaces, 
porous borders, organized crime, and narco-terrorism pose 
enormous challenges to freely elected leaders and often 
undermine legitimate governments.
    We at the United States Southern Command recognize that not 
all problems and solutions are military in nature. The military 
can often help to set the conditions to create a safe and 
secure environment, thus allowing the agents of reform and 
development, the political, the economic and the social 
programs, to improve the quality of life for all citizens in 
the region. Such an approach requires an integrated long-term 
effort.
    We at the Southern Command fully support the American 
Servicemembers Protection Act, ASPA. Although well intentioned, 
ASPA continues to have unintended consequences. Eleven partner 
nations in our area of responsibility are unable to attend the 
United States International Military and Education Training, 
that is IMET, programs. This loss of engagement prevents the 
development of long-term relationships with future military and 
civilian leaders.
    We thank you, this committee, for your steadfast support. 
Continued congressional support for our efforts will ensure 
that the command is capable of more effective engagement with 
our regional partners.
    Thank you for the opportunity to be here today. Mr. 
Chairman, I look forward to your questions.
    [The prepared statement of General Craddock can be found in 
the Appendix on page 31.]
    The Chairman. Thank you, General Craddock.
    I think we have a lot to talk about this morning. I will 
ask my questions at the end of the hearing, and make sure our 
members get a chance to get involved in this discussion.
    The gentleman from Missouri.
    Mr. Skelton. I will ask just one question right now and 
reserve my other questions for later.
    General, what in the world is China doing in Latin America?
    General Craddock. Thank you, Congressman Skelton. They are 
doing quite a lot, sir. What we are seeing is an increase in 
military-to-military relations between the Chinese military and 
those of the nations in the region. We are seeing that from the 
Caribbean basin through South America. We are seeing less of 
that in Central America. I note that the Central American 
countries still recognize Taiwan officially.
    But in South America and the Caribbean basin, we are seeing 
the level of military assistance increasing by a factor of 
three. We are seeing three times more military assistance, 
dollar value, mostly non-lethal, coming to those countries with 
very few strings over the past couple of years as in previous 
years. The limits are upwards of U.S. dollar equivalent 
$750,000, maybe $1 million average across the region, non-
lethal equipment.
    We are also seeing, as disturbing, maybe more so, the 
opportunities now for military personnel, senior leaders, 
officers, noncommissioned officers from the militaries of the 
countries of the region to go to China for education and 
training. This is especially concerning, and obviously ties 
into the IMET restrictions due to the ASPA.
    So as I go about the region, more and more my counterparts 
tell me of their engagement with the Chinese and the 
opportunities that they are taking when the Chinese approach 
them to take advantage of the education and training in China. 
I am told that the training and the education is done in 
Spanish in China.
    Mr. Skelton. May I ask you, would you be kind enough when 
you get back to your headquarters to send the chairman and me, 
so we can share with the other members of the committee, your 
recommendations on changing the American Servicemembers 
Protection Act so that we can help alter the IMET restrictions? 
I think that is important for us to look at. If you would tell 
the chairman and me, we would appreciate it.
    General Craddock. I will do that, sir.
    The Chairman. I thank the gentleman. I want to thank him 
for requesting this information. I think we will act quickly to 
help out there.
    The fine gentleman from Florida, Mr. Miller.
    Mr. Miller of Florida. Thank you, Mr. Chairman.
    General Craddock good to see you again, sir.
    General Craddock. Good to see you, sir.
    Mr. Miller of Florida. Could you please just give us a 
thumbnail sketch, as has been mentioned, of Hezbollah, Hamas, 
and al Qaeda terrorist organizations in the region? Do we have 
a good handle on what is going on? Is it expanding? Bring us up 
to date.
    General Craddock. Thank you, sir. It is hard to give a 
thumbnail. Let me try to summarize to the extent I can in open 
session.
    We have been and continue to see Islamic extremist groups 
operating in the region in various enclaves throughout the 
region. There does not appear to be much of a spread into new 
areas. What appears to be happening is continued activity in 
terms of logistic support, fundraising, and fraudulent document 
productions. Also we see quite a bit of movement through these 
enclaves either in a transportation mode or potential safe 
haven, as these individuals move around the world.
    What we are looking for and what we key on is change, to 
change the delta, if you will, between the status quo, which is 
significant, there are somewhere between three million and six 
million Muslims in Latin America, and there is a well-
established community there, so what we watch is the change of 
new faces, new procedures, new activities. We are seeing some 
of that in different locations, and watching that closely.
    We again do not believe that there are any operational 
cells in the region. We do not believe that there are any 
training centers or areas in the region, but we do believe the 
capability exists if there was a desire to do that, based on 
the fact there are many ungoverned spaces throughout Latin 
America and the Caribbean basin.
    That is probably, sir, as far as I can go in open forum. I 
can provide you a classified response for the record if that 
would be helpful.
    Mr. Miller of Florida. If you would, thank you.
    That is all, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    General, good to see you again, sir.
    General Craddock. Good to see you.
    Mr. Ortiz. We certainly appreciate the fine work that you 
and your command, what you do in that part of the world.
    General, what is the impact of the traffickers in drugs and 
weapons and people in the countries of Central America? We do 
have a problem in the United States now with some of the gangs, 
the Mara Salvatrucha. I was just wondering the impact that it 
has and I know that we are deporting a bunch of them, and they 
go back to that area. Maybe you can make some comments on that.
    General Craddock. Certainly. Thank you, Congressman.
    The impact of the trafficking lanes, both overland and 
through the maritime approaches of Central America, is a 
destabilizing factor to those countries. The situation is a 
threat to public security, period. That is an absolute known 
fact. If the magnitude grows, and it is uncertain in some 
countries just how far it has grown and how big it is, it could 
become and may well become a threat to the national security of 
those countries.
    The trafficking is extensive. It goes north with the drugs. 
It comes south with arms. It goes north with persons. It comes 
south with money and contraband. We watch this. We track these 
interests both in the air and on the sea. It is significant. We 
see that the criminal elements and the gangs in Central America 
have traditionally provided logistic support, safe havens, 
security for the traffickers as they moved through the 
countries.
    In the past, they, the traffickers, have normally paid for 
this in currency. Now, a troubling aspect we are seeing, the 
countries are reporting to us in Central America, as well as in 
the Caribbean, that the traffickers are now providing payment 
in kind. A cut of the drugs is provided to the gangs, to the 
criminal elements who support their trafficking lanes. The 
drugs then are sold in those countries, which creates a new 
dependence, which creates a new criminal element, and it 
becomes an escalating problem in public security.
    So it is indeed a situation that is a concern to the 
countries. They are working together to establish both inside 
of each country a capability to respond. I think their next 
step, as I understand the leaders have decided, they may well 
have a regional response capability to work against this 
organized criminal aspect. We have seen significant 
developments in the Mosquitia coast in Honduras, in Belize and 
in Guatemala. It is particularly strong right now.
    As our interdiction capability gets more credible in the 
Eastern Pacific, the traffickers will move into the Western 
Caribbean, along the lanes of the Central American nations. So 
we are working with those countries. We are partnering. We are 
determining what their needs are.
    And essentially their public security forces have to be 
strengthened, have to be given increased capability. Sometimes 
that is police exclusively, and based upon their national 
authorities and laws, they may well ask the military to 
reinforce, which is a very sensitive issue because of 
historical sensitivities and problems in Central America.
    We work very closely with them. We are supporting the 
countries to the best extent that we can for their capability 
to counter this trafficking element. I think it is going to be 
important that Colombia also reach out and provide them their 
lessons learned, what they have done, how they have in many 
cases worked through some of this trafficking in Colombia as it 
moves in and out of that country. They are doing that and we 
think that is very helpful.
    Mr. Ortiz. One more question. How will Enduring Friendship 
enhance the maritime security in the nations participating in 
this initiative, General?
    General Craddock. Enduring Friendship is a program that was 
conceived about three years ago from the office of the 
Secretary of Defense. The notion here is, Enduring Friendship 
is an opportunity for us to build the maritime capability of 
the countries of the Caribbean and Central America.
    The concept is that right now, we, the United States, with 
some of our allies, the Department of Defense, Customs and 
Border Protection, Drug Enforcement Agency (DEA), the Dutch, 
the French, the Brits, fly detection and monitoring missions. 
We try to find these traffickers moving on the ocean, the sea 
or in the air.
    Then when we find them, we have to have a law enforcement 
detachment intercept them, make the arrest, and put them into 
the judicial system. Enduring Friendship would like to build 
the capability for our partner nations to do the interdiction 
on the surface so that as these fast boats, these fishing 
trawlers, these tracks of interests that are carrying the drugs 
move into their waters, they are capable of receiving the 
information from our Joint Interagency Task Force South, and 
then vectoring in, they will interdict, make the arrest, and 
then turn the traffickers over to the judicial system so that 
we can process the information and continue the cycle.
    It will take a few years. The countries are all supportive. 
They want to do this. They want to enforce their maritime 
sovereignty. We think over the next several years, we can build 
that to where they will be tied into a common maritime 
operating picture and have the capacity and capability to do 
what we call the ``end game,'' which is the arrest.
    Mr. Ortiz. Mr. Chairman, thank you so much.
    Thank you, General.
    The Chairman. I thank the gentleman. I thank him for his 
continuing interest in this very important area in the world.
    The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Good morning, General. Thank you for being here.
    General Craddock. Yes, sir.
    Mr. Kline. You look sort of lonely at that table.
    General Craddock. I feel lonely. [Laughter.]
    Mr. Kline. I am sure you can more than handle it.
    A lot of issues that have been touched on this morning, 
certainly the China question and the activities of al Qaeda and 
other Islamist extremist organizations. But there has been much 
talk and concern lately over President Hugo Chavez in 
Venezuela, what he is doing country-to-country, his 
relationship with Castro, how he is involved in any terrorist 
or drug activity.
    Can you take the three or four minutes I have here and just 
sort of bring us up to speed on how that is developing and 
what, if anything, that we, you, your command, we the United 
States are doing? Thank you.
    General Craddock. Thank you, Congressman.
    Indeed, it is a very cogent issue. Venezuela right now we 
believe has become a destabilizing factor in the region. If you 
look at Venezuela today, it would appear that democracy has 
been hijacked, that the checks and balances, the separation of 
powers has all now been reduced to essentially an executive 
lead, and the decisions are all made pretty much at one 
location.
    Someone said the fundamental essence of a democracy is the 
right of the people to hire and fire the government. I would 
submit to you that it would be difficult to do the latter, to 
fire a government in Venezuela today. Now, the concern is, what 
does it mean to the rest of the region? Are there others that 
may subscribe to that philosophy or that practice, and we are 
concerned that it is being exported as we watch through the 
region.
    This is a year of elections. There are going to be I think 
seven or eight more elections, counting Guyana, throughout the 
remainder of this calendar year, many of which will be 
influenced by that type of a political process. So that is of 
concern, and we are watching that closely.
    We know there is a strong bond between Cuba and Venezuela. 
Venezuela provides nearly 100,000 barrels of oil a day to Cuba, 
a lot of which is not used, but sold by Cuba on the 
international market. So there are many Cuban doctors 
throughout the region, and many in Venezuela, so we watch that 
also very carefully.
    We traditionally have had a strong relationship with 
Venezuela over the years. Military-to-military has been very 
good. I would tell you that over the last two years, that has 
eroded to almost no relationship. We are unhappy about that. We 
would like to have a continued relationship. We continue to 
invite the Venezuelan military to our exercises, to our 
conferences, to any opportunity to continue to partner, but we 
have been unable to be successful in that effort.
    We have had to reduce our military group, downsize it, if 
you will. In August of 2004, the Venezuelans told us we had to 
move off of a Venezuelan military installation where our 
military group is located. They moved into the embassy grounds. 
Since then, because of this lack of engagement and contact, we 
have reduced that group down to a very small number, and I may 
well reduce it further because of a lack of work, if you will. 
And we have plenty of work in other parts of the region.
    What we are doing now is watching closely. We are talking 
to the neighbors in the region. We are exchanging information. 
We are concerned about, as was mentioned earlier, this arms 
procurement that appears to be far in excess of any need.
    Mr. Kline. What kind of support are you getting from the 
neighbors? The giant concern is that this keeps expanding 
outside the borders of Venezuela, and if there is not some 
determined resistance to that notion from the neighbors, it 
just looks to me like we have an explosive problem. Are you 
getting a cooperative kind of response from the neighbors or 
not?
    General Craddock. I think it is a mixed bag. I think there 
is concern, obviously. I have talked to my counterparts in 
Brazil. They openly, publicly have talked about the concern for 
these 100,000 automatic assault (AK) weapons that are being 
procured. There is concern from other elements about the 
procurement of aircraft and offensive capability-type weapons.
    So the neighbors are concerned, and there is a level of 
angst, if you will, about where is it headed. If it is for 
border protection and control and security, and for enforcement 
against the illegal armed groups that may be moving in that 
area, that is one thing. We don't know that, and we have no 
indications right now. It is not transparent. So that is the 
level of concern.
    Mr. Kline. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Florida, Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman.
    General, thank you for being before the committee this 
morning.
    I have a Venezuela and a Haiti question. You answered some 
of it in your previous question, but I want to focus on 
Venezuela and what is happening as it relates to oil playing a 
big part in gaining partners in the Americas, and also the 
question on the AK-47 procurement.
    Now, last year, that was brought to the committee's 
attention. Did they order more weapons than they actually have 
in their military?
    And the second question, if you can open in open session 
here, are there any hard leads that you are following as it 
relates to some sort of strong-arm team in Venezuela, non-
uniformed personnel that may find themselves with these AK-47s?
    I do have a Haiti question on the back end of that.
    General Craddock. Well, let me talk about the weapons. 
First is the numbers. It is hard to tell right now what the 
size of the Venezuelan military active force is. We think it is 
somewhere around 80,000 total. They are buying 100,000 weapons. 
They already had some weapons, so obviously there is an excess 
there. So that is of concern. What happens to the displaced 
weapons and then the excess of the new weapons?
    Second, is there some other force? There is a new effort in 
Venezuela right now to raise a national reserve, if you will. 
The goal is about 2 million. I don't know if you would call it 
a militia, a paramilitary, a reserve, but they will be armed. 
They will report not to the active military, but to the 
president of Venezuela. Interesting.
    So it may well be that some of these displaced weapons or 
some of the additional new weapons will go to that force. That 
is in process right now in terms of raising the level of that 
force and the size.
    When we look at this, and again we are watching this, it 
appears to follow the Iranian model of the people's reserve, if 
you will. So again, it is a work in progress and we don't know 
exactly how far or where it will go, but it is interesting in 
its design and execution.
    Mr. Meek. In Haiti, Mr. Miller and I traveled down there, I 
guess, with you, recently or late last year. As you know, the 
first round of elections have taken place. We are hopefully 
getting some level of democracy and government in place. We are 
concerned about the drug trade because I know that that has a 
lot to do with the thuggery on the streets of Haiti and is 
going to make it very, very difficult for that island nation to 
be able to pull itself up and out.
    Are we seeing more activity in Haiti as it relates to 
drugs?
    And two, and the chairman mentioned this in his opening 
comments, do you see us playing any military role in Haiti any 
time in the future? I guess basically, what do you feel that 
needs to happen so that the military does not have to go back 
on its rotation, almost, to Haiti? Because we have not only 
political unrest, but these drug dealers play a role in 
creating that environment.
    General Craddock. Thank you.
    With regard to drug activity, I would say that as we have 
watched this through our Joint Interagency Task Force South, it 
continues at about the same level as it has over the past 12 to 
18 months. It is significant. It is mostly air traffic and 
mostly from Venezuela, several flights a week, and they land 
day and night.
    The information, obviously, is important to get passed to 
security officials in Haiti. The Haitian national police are 
trying to again weed out the corrupt element. They are doing a 
pretty good job of that. It is hard work. There is still a lot 
to do. They are making some progress. So I will tell you that I 
think the drug trafficking through Haiti is probably about the 
same as it has been. I see no significant improvement, nor do I 
see any significant worsening.
    With regard to the U.S. military role, I think if you look 
at Haiti today, and if you look at that election and you look 
at the security surrounding it, it probably was pretty good. 
The security throughout the country is good. There are a few 
enclaves, the cities, Port-au-Prince, Gonaives, potentially 
Jacmel, where there are some security problems because of gangs 
and organized crime, potentially the drug traffickers who move 
in and create opportunities for others, but by and large, the 
country is relatively secure.
    I think the next step is, I don't foresee a U.S. 
involvement. I see a continued United Nations Stabilization 
Mission in Haiti (MINUSTAH-UN) involvement. I think that now 
the United Nations, working with the elected government of 
Haiti, will take a look at MINUSTAH and potentially re-craft 
it, redesign it to be relative to the situation, the existing 
conditions today, and maybe rearrange where some of those 
forces are.
    At the same time, the United Nations civilian police must 
continue their effort to train a capable, competent Haitian 
national police. I think the combination of those will put the 
security situation in good stead.
    The Chairman. I thank the gentleman.
    The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    General Craddock, thank you for your service to our 
country. We appreciate your testimony and your presence here 
today as well.
    You know, as we in this committee look at the concerns in 
the global war on terror and looking and recognizing other hot 
spots around the world, what in your area of responsibility 
keeps you awake at night? What is your biggest concern?
    General Craddock. Thank you, Congressman. That is a tough 
question. There are a few things that keep me up at night.
    First, I think, well, I will give you a couple of things 
that are relevant here I think in this open forum.
    Continued support for Colombia. Colombia, every trend is 
positive: The attacks are down; demobilizations are up; 
kidnappings are down; murders, human rights violations and 
allegations of violations are down. It is a positive trend. The 
foreign direct investment is up. The government budget is up. 
The number of professional soldiers is up. The number of 
nonprofessional or conscripts are down, all good trends.
    But as they grow, they have to balance this requirement for 
security against development. They have to balance their 
requirement to be able to demobilize and re-integrate 24,000 
paramilitaries right now against a requirement to continue to 
be strong and convince the Revolutionary Armed Forces of 
Colombia (FARC) and the National Liberation Army, Colombia 
(ELN) to come to the negotiating table and demobilize.
    At the same time as they gain military and security control 
of these parts of the country, then they have to follow up with 
programs to create jobs, infrastructure, social services, so 
that the people understand for the first time in many of these 
locations that governance is a good thing and they get more 
opportunity with that than they did before with the insurgent 
elements and the terrorist groups.
    So I think that we need to stay the course for the next few 
years. I think Colombia will continue to do the right thing and 
they will generate the revenue over time to be self-sufficient. 
But if we pull the plug too soon, I am concerned that the 
balancing act will be too difficult and something will fall off 
the table.
    The second thing that keeps me up some nights: traffickers, 
fast-boat, 40-foot fast-boat, four outboard motors. It can go 
from the north coast of Colombia to Jamaica in 16 hours nonstop 
with a crew of four, eight drums of fuel, and a ton-and-a-half 
of cocaine. It could also go with two Islamist terrorists, 
extremists, and a weapon of mass destruction or weapon of mass 
effects. Ungoverned spaces are rife and readily available in 
our region.
    We work hard to try to find the nexus, the linkages of 
where this could happen most likely, but quite frankly you look 
at the tracks and you look at the magnitude of this trafficking 
problem, we don't know right now if that is happening.
    Mr. Gibbons. General, are you seeing an increase of 
insurgents passing through, or that pass through, say, al 
Qaeda-trained terrorists through your command, en route or 
either in a transient phase somewhere in your command, say, to 
the United States?
    General Craddock. I can't go too far here in this type of 
session. I can provide, if you would like, a classified 
response for the record. Let me just say we are seeing a 
continued transit through the region of AQ or AQ-affiliates, 
destination sometimes unknown, and we continue to see new faces 
and change is troublesome when you see new faces.
    Mr. Gibbons. When I look back at my experiences in that 
area and Ciudad del Este, the city of commerce for the Hamas, 
Hezbollah, the terrorist organizations, it concerns me a great 
deal.
    Let me move from that to one just very brief question. I 
want you to describe for me what you see as the proper balance 
in U.S. Southern Command (SOUTHCOM) there between active and 
reserve components. What is the proper balance for completion 
of the mission there?
    General Craddock. Congressman, that is a difficult 
question. Let me start off first with: A lot of the troops, the 
forces we use, we have very few assigned forces. So we request 
forces or we have forces who are apportioned to us for training 
or operations.
    With regard to special operations forces, I think there 
that we have to have active duty special ops forces to a 
greater rather than a lesser extent because they build up, one, 
familiarity with the region. They have language competency and 
they understand the lay of the land and they know the people.
    So over the years we have done that. Recently, because of 
the global war, because of the requirements in Iraq and 
Afghanistan, some of our habitual special operations forces 
have moved to that fight and we have gotten reduced numbers or 
we are getting other units to come in who may not have that 
familiarity. So we need the dedicated regional application of 
special operations forces.
    Now, beyond that, we really do a lot of work with 
exercises, humanitarian-type exercise, our New Horizons, where 
we draw on reserve components. We need continued access to the 
reserve components of all the services because we use them on 
their two week training. We had a couple days on the front and 
the back side. They go into the region. They go great work on 
construction projects and running medical readiness exercises, 
dental readiness. That is the greatest engagement tool, the 
hearts and minds tool that we have. So we need continued 
access.
    Now, there has been a huge demand on reserve forces also. 
So the services are having to dig deeper in to find those types 
of skills and capabilities. We also need, then, to have that 
funded through the service mandate program where they pay for 
the reserve components. I don't have that type of money. I have 
transportation money to get them back and forth, but I can't 
pay their salaries, so that needs to continue.
    Mr. Gibbons. General, thank you for your service.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, General, for being here.
    I have just two questions, General Craddock. The first one 
is in response, I guess it was to Mr. Gibbons, when you were 
talking about al Qaeda elements that you are seeing. You are 
saying you are seeing them pass through. Maybe this isn't the 
format to discuss that, but I couldn't tell if you were seeing 
actual members of al Qaeda.
    I assume if we are seeing actual people that are members of 
al Qaeda working with or for al Qaeda, we are responding to 
that in some fashion. We are not just watching them pass 
through. Is that fair statement?
    General Craddock. Fair. In other words, when I say that, we 
get reports after the fact. We are tracking things. It is not 
like we are watching them go from somewhere into our region and 
then out. What we try to do is understand the movements, but it 
may be after the fact that we find out.
    Dr. Snyder. General Craddock, I am sure you are aware about 
the flurry of activity yesterday with regard to the 
interrogation issues at Gitmo. You were quoted in today's 
paper. There is a story in The Washington Post on page A-13 
today with a heading, ``Military Lawyers Say Tactics Broke 
Rules,'' and you are quoted in there.
    I wanted to give you a chance to comment on the issues that 
came up yesterday, because they are saying that the military 
lawyers are conflicting with statements that you have made. 
Would you amplify on that or explain that please?
    General Craddock. I make it a habit not to read The Post, 
but let me just tell you what I know. All I did was talk about 
what Schmidt-Furlow said, the Schmidt-Furlow report, that is 
the investigation. Schmidt-Furlow said there was no violation 
of law, regulation or policy. I agreed with that assessment. So 
this is not my opinion. This is my affirmation of that finding 
and recommendation.
    Dr. Snyder. Actually, I do want to respond a little bit. I 
am not sure of the value of a high-ranking general officer to 
make it a habit not to read The Washington Post. You know, I 
read things that I don't agree with. I sometimes even read the 
chairman's opening statements when I get a chance, and I don't 
agree with everything he says. [Laughter.]
    I am not sure what the point of that attitude is because it 
now puts us in the position, you are quoted extensively in the 
paper today and I hope that you will at least have people 
pulling articles that you think are appropriate to your area of 
responsibility from publications with which you disagree.
    The point of it is that at some point you are quoted as 
saying that the techniques that were used at Gitmo were, 
quoting you, ``creative and aggressive, however, these 
applications did not violate any U.S. law or policy.''
    And then yesterday on the Senate side in response to 
questions for the record, quoting The Post again, ``The top 
lawyers for Army, Navy and Marine Corps have told Congress that 
a number of aggressive techniques used by the military 
interrogators on a detainee at the Guantanamo Bay prison were 
not consistent with the guidelines in the Army field manual on 
interrogations.'' That is the quote from The Post.
    So I am just asking you, we have a conflict. The reason 
this is important to me, I think this has been aired a lot, but 
the reason is it important to me is because we have a confusion 
between you and between the highest ranking military lawyers 
over what is or is not good policy. Put yourself in the 
position of Mr. Reyes when he was in the military as a young 
man, as an enlisted guy.
    So we are asking people to try to fight a war and do 
interrogation and gather intelligence at really all levels of 
the military, and yet according to these reports, the 
information gathered in the Senate, you and the military 
lawyers are not in agreement over what is considered good 
policy consistent with, or good techniques consistent with Army 
policy.
    Has that been resolved? This was several months ago when 
these questions were asked. Is there still confusion between 
how you view interrogation techniques and how the top military 
lawyers view interrogation techniques? Where are we at with 
regard to the Army field manual? Can you give us an update on 
where we are at with what seems to be a fairly glaring conflict 
between you and the military lawyers?
    General Craddock. Congressman, this is the first I have 
heard that these military lawyers have disagreed. The last I 
recall, as I testified here in July, where were they then? If 
they disagreed, why now is there disagreement?
    That report, and again what I said, and I don't know where 
the report came from. I will check it out. I will look. I read 
the op-eds, but some of these columnists, these reporters, I 
don't. But I take your point. I appreciate that.
    But this is nothing new. This was the result of the 
Schmidt-Furlow report. And if one would read that report, that 
has been provided open-source, it would say, that report says 
these things. All I did was accept that recommendation, and I 
agreed with that finding.
    It also said that it may well be that the combination of 
techniques and applications, you see, there is an interrogation 
technique authorized by 3452, and at the time that this 
occurred also there were additional authorizations from the 
office of the secretary of defense. So you have techniques, and 
the interrogation team takes those and develops applications 
under those techniques.
    Now, it may well be, and the Schmidt-Furlow said this, and 
I agreed, that the combination of techniques and applications 
either taken together or taken together over time or not taken 
together, but administered separately over time, may result in 
degrading treatment or punishment. Okay, then where do you 
cross the line? We don't know, said Schmidt-Furlow but it is 
worthy of continued investigation by the office of the 
secretary of defense. I agree with that and I recommend that be 
done.
    Now, with regard to the manual, Congressman, I can assure 
you that we are in full compliance with the Detainee Treatment 
Act that was passed recently with the authorization act, full 
compliance. I can assure you that before that act was passed, 
we were in full compliance with field manual 3452, that there 
was no cruel, inhumane or degrading treatment going on at Gitmo 
at the time, or for some time before that.
    Let me finish, sir. I can assure you that we want the new 
manual and we want it to define what is degrading treatment 
because I do not want to put any soldier, sailor, airmen or 
Marine at risk of not understanding what they can do.
    Dr. Snyder. That is right, and you and I are in 100 percent 
agreement on that, because that is the issue as things get 
filtered down. I encourage you to read these articles and also 
get the information, the statements, the questions for the 
record that were answered, because the answers provided by the 
lawyers are in disagreement with what you just stated because 
they are specifically saying that a specific technique used 
alone, and it goes through a list of them, is in itself 
inconsistent with the intent and spirit of our policies. So I 
think that would be worthwhile straightening it out.
    It does concern me that when you asked me, where were the 
lawyers, I hope they are working with you. I mean, part of our 
whole thing through all this confusion in the last three years 
was we were hoping that our military officers were getting the 
best advice that they could along the way, consistent with the 
desires to keep themselves safe and fight a good war and have 
the kind of military that they all want.
    When I hear that apparently you and the lawyers are not in 
good communication, it is going to be difficult for things to 
go down the chain of command to those officers that are 
enlisted and doing all the work of interrogation if we don't 
even have consistency of communication between the top military 
lawyers in the Army and you.
    Thank you, Mr. Chairman.
    And I do read your opening statements, Mr. Chairman. 
[Laughter.]
    The Chairman. Okay, well, I thank the gentleman.
    And let me just give my take on high-ranking military 
officers reading publications and giving us their candid 
assessment of the veracity of those publications.
    You not only had thousands of members of the military 
strongly criticizing The Washington Post for its cartoon that 
depicted the U.S. Army as a double-amputee, you also had the 
chairman of the Joint Chiefs and the chief of the Army.
    I would just say to my friend from Arkansas, you ask tough, 
candid questions of our military leaders when they arrive here, 
and we don't have any ban or any reservation on any questions 
you can ask. If you cite a publication, that officer has the 
absolute right to give in his answer his feeling about the 
veracity or the credibility of that publication because you are 
citing that.
    So the witness before us made a comment about The 
Washington Post, I will just tell you, his statement is not 
nearly as tough as the statements that I saw from the military 
leadership going right up to and including the chairman of the 
Joint Chiefs about that particular publication.
    Our military leaders aren't robots, and they are not 
expected to not give their opinion. Dr. Snyder, when you quote 
a publication, every witness reserves the right to tell you 
their opinion of the credibility of that publication. I think 
the general just did that.
    So as a gentleman who enjoys candor, I am going to pre-ship 
those opening statements to you. [Laughter.]
    Dr. Snyder. I appreciate your comments, Mr. Chairman, and I 
will accept them. I agree, General Craddock has every right to 
read or not read anything he wants to do, but I am not quite 
sure if that is the expectation of a lot of us here. So I do 
hope that he will read these articles that were in today's 
paper and respond to them as he deems necessary.
    Thank you.
    The Chairman. Sure. And I am sure those articles appeared 
in lots of papers.
    So, General, if we catch you looking at the classified ads 
of The Washington Post now, we may get you for inconsistency. I 
do think they have great classified ads, for the record.
    Incidentally, Dr. Snyder, I want to thank you. You are 
going to be going down with Dr. Schwarz to Guantanamo, I am 
informed. I think that is excellent, and take a look at 
procedures down there.
    That leads me to Dr. Schwarz, the gentleman from Michigan.
    General Craddock. Mr. Chairman, may I just comment, if you 
would permit me?
    The Chairman. Yes.
    General Craddock. I have a great staff that keeps me 
informed, and they are going to tell me, ``Look at this.'' And 
so the fact of the matter is, when I have to do those things, I 
will.
    But I guess the problem I have, Congressman Snyder, is the 
lawyers have said, well, by golly, if the lawyers said it, why 
didn't they pick up the phone and call Craddock and say, ``We 
think you are wrong''? But that didn't happen and it didn't 
happen last July or August or September.
    So when it is in the paper, you know, that is one thing. Is 
it in context, out of context? I know I have been taken out of 
context by The Washington Post. But I would hope that as 
professionals that we could make this communications work, 
because if somebody believes, or judges, or has the opinion, 
then I have to listen to it. It is important because we have to 
do the right thing.
    Dr. Snyder. General, I agree with that 100 percent, because 
what cannot happen is that in order for information, whether 
you are right or wrong, to get from the top-ranking lawyers in 
the Army to you, it cannot first go through a minority Member 
of Congress or The Washington Post. And so this route ain't 
working, so I suggest whoever works for you or you work for 
that they get this straightened out because this is not a good 
way to do business. I appreciate your comments.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Michigan, Dr. Schwarz.
    Dr. Schwarz. General Craddock, nice to see you again, sir.
    General Craddock. Thank you, sir.
    Dr. Schwarz. We were in Guantanamo in late June last year, 
and the chairman was on that mission, as was myself. The 
chairman asked me to take a look at the health care facilities 
at Guantanamo. I don't think that we need to try to skirt the 
issue here. In fact, I would be disappointed if we did.
    I did, as a surgeon, a fellow of the American College of 
Surgeons of 35 years standing, look very carefully at the 
health care facilities at Guantanamo, and I judged them to be 
as good as those in any small town in the United States 
anywhere. In fact, some of the equipment I saw, I know there 
are small towns in the United States that would like to have 
that equipment.
    Second, if there was a problem, it is Camp Delta, is it 
not, and Camp Echo is the next one? If there was a problem that 
they couldn't handle, you have the naval hospital two miles up 
the road or so. And third, my understanding is that cases 
requiring tertiary care and tertiary care specialists, you have 
had specialists flown in, naval physicians I believe, flown in 
from the United States to deal with those.
    So the reports that health care was lacking for the 
detainees in Guantanamo which was circulating at that time and 
have actually circulated since, are inaccurate. I want that to 
be in the record out in the open, that I spent significant time 
in the health care facility at Guantanamo and found it 
exceptionally well equipped with a couple of very good fallback 
positions.
    That said, how many detainees are there now at Guantanamo?
    General Craddock. About 485, Congressman.
    Dr. Schwarz. How many have been released for one reason or 
another?
    General Craddock. Returned to country of origin, 265 or 
267, somewhere in there.
    Dr. Schwarz. General, how many detainees are currently 
hunger-striking at Guantanamo?
    General Craddock. Six.
    Dr. Schwarz. And are all six being--well, ``force-fed'' is 
an awful phrase, but they are being given nourishment?
    General Craddock. Three are being involuntarily fed.
    Dr. Schwarz. Three.
    General Craddock. Three.
    Dr. Schwarz. Three are being involuntarily fed. Would you 
care to describe the procedures that are being used to feed a 
detainee against his will?
    General Craddock. Yes. The three are being involuntarily 
fed twice a day, about 30 minutes prior to the scheduled 
feeding are told they are going to be fed, and to if they need 
to go to the restroom prior. They are then taken into a room 
where there is a padded chair, ergonomically designed. This 
chair is used by every prison system in every state in the 
United States. They are put in the chair. There are restraints 
that restrain their arms and legs, and there are two slots for 
their head to fit in so their head is immobilized because this 
has to be a very careful procedure when the tube is put down 
the nose into the stomach.
    I asked, what is the difficulty here, when the doctors do 
it? And only doctors do this. They said, we have to be very 
careful because they don't want the tube to go into the lungs. 
And they have never had one in this insertion that has been 
applied improperly.
    Dr. Schwarz. They are better than I am on that, having put 
hundreds of naso-gastric tubes, and occasionally you get one in 
the trachea and you know right away and you get it out and you 
put it into the esophagus. So that is not a grievous error. It 
is one that is a little uncomfortable, but not a grievous one. 
You just fix it.
    General Craddock. Very good. They are offered a topical 
anesthetic if they want it. The feeding tube is lubricated. The 
tube goes in. They are fed for 20 to 40 minutes by a 
nutritional supplement. It varies. Water is also provided.
    And then the tube is removed and they stay in the chair for 
another 60 to 90 minutes, depending upon, again, the individual 
and what his medical history shows, so that the nutrition is 
digested or assimilated into the system.
    At that time, they are released and taken back to their 
cell.
    Dr. Schwarz. Thank you, General.
    Let the record indicate, this is precisely the way that 
people are tube-fed in hospitals in the United States today, 
have been for years, and will be for quite a few years into the 
future. It is the easiest way to get nutrition into someone, in 
this case, who doesn't want to eat, and in the case of people 
in hospitals in the United States who can't eat for one reason 
or another.
    The second way to do it, of course, for people to have it 
done permanently is to put a permanent tube through the 
abdominal wall into the stomach, which is a surgical procedure 
which is not being done, but this naso-gastric tube feeding, 
let the record indicate it is a standard and very humane way to 
provide nutrition.
    General, thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. I thank him for his 
expertise and also, along with Dr. Snyder, for taking the time 
to go down on the upcoming trip to review these procedures.
    The gentleman from Texas, Mr. Reyes, proud grandfather of 
Julian?
    Mr. Reyes. Julian, that is right.
    The Chairman. New grandfather.
    Mr. Reyes. Thank you, Mr. Chairman.
    General, welcome.
    General Craddock. Thank you, sir.
    Mr. Reyes. As I was listening to our colleague describe the 
process, as a recent patient last Friday of a knee operation, 
it is more than an annoying when you miss the esophagus and go 
into the trachea. I agree. It is very uncomfortable. Not that I 
had it done, but I can just imagine. I appreciate the fact that 
we have doctors here that can verify these procedures with 
their expertise.
    I was wanting to ask the general, in your written 
statement, you talk about I think three different types of 
exercises, operational foreign military interaction, field 
modification instruction (FMI), and humanitarian. Can you give 
us maybe an example of each?
    The reason I ask that, just so you will know where I am 
coming from, is that it has been my observation that in terms 
of both military assets, intelligence assets and maybe even 
programmatic assets, we are on the verge of dangerously 
ignoring our backyard, which is Latin America, Mexico, Central 
America, South America, the Caribbean.
    That is one thing that I have been speaking with the 
chairman and others about, that we need to really refocus 
because of the challenges, and some of which you mentioned here 
in your testimony today, with the affiliates from al Qaeda, 
some that my colleagues mentioned with Hamas and Hezbollah and 
others. I sit on the Intelligence Committee, so this is one of 
those areas that we have been, at least that I have been, very 
concerned about.
    So if you can give us those examples, and maybe in those 
examples some of the limitations that you are under because of 
maybe lack of assets or the shortage of the ability to really 
do a good job in those areas.
    General Craddock. Thank you, Congressman. I think I can do 
that.
    First of all, the operational exercises, those are the 
exercises that we at U.S. Southern Command implement and do 
with our components. They are to ensure that our ability to 
execute the contingency plans and the functional plans that we 
have been assigned responsibility for are well understood, 
rehearsed, and that we are ready to do that.
    For example, we may have a noncombatant evacuation 
responsibility for certain countries. We would craft up a 
command post exercise where we would, computer-assisted, 
develop a scenario and then our staff would work through the 
problem-solving and the military decision-making process and 
things like that. So that is to sustain our competency in our 
assigned tasks.
    Mr. Reyes. Would it involve a number of troops in the 
traditional sense?
    General Craddock. Exactly. For example, we are doing one as 
I speak where we have troops involved at U.S. Southern Command 
in Miami, and we also are at the joint warfighting center down 
in Suffolk, which is the Joint Forces Command's simulation 
center. So there are hundreds of folks there, some from my Army 
component out of Fort Sam Houston. They are in Virginia right 
now in this exercise, some from Davis-Monthan Air Force Base in 
Tucson. So our components are all there.
    I went down Tuesday to visit after testimony. It has 
probably got the largest interagency grouping of any exercise 
that Joint Forces Command has done in the last five years. So 
we have an enormous interagency group down there working 
through this scenario. It is not a field exercise. It is a 
command post exercise, but at the level we operate, we have to 
work through our competencies.
    Now, let me move to military-to-military. This is with our 
partner nations in the region. These we do. We have a series of 
these. Some are done every year, some every other year. Let me 
give you a couple of examples. The Tradewinds exercise is an 
exercise that we do with the countries of the Caribbean region. 
It is largely maritime in nature. It deals with security issues 
throughout the Caribbean region.
    Now, in 2007, the Caribbean, several of them, eight 
different countries are going to host, each have a venue for 
the World Cricket Cup competition, which is huge in the world 
of cricket. It is like the soccer World Cup and the Super Bowl 
rolled into one, I think. Different islands will hold venues 
and they will move among all the islands. So the plan is, 
because there is a shortage of hotel rooms, they will use 
cruise ships for accommodations and the ships will move around.
    We have crafted last year's and next year's Tradewinds 
exercise with these island nations to give them training, and 
as a rehearsal for the security requirements they will have for 
that venue, that World Cricket Cup, because there will be 
significant security since much of the cricket-playing world, 
Pakistan and other places where there is some instability. So 
we think that that provides an operational flavor to that 
exercise.
    Another one is Panamax. Panamax, we do annually, and that 
is the defense of the Panama Canal. It started out with 3 
countries and now this year I believe we will have 16 nations 
participating, both in the region, and Great Britain is going 
to participate as an observer. Practically every country that 
uses the canal, that has a maritime capability, want to 
participate in this exercise. So it is a big exercise. It will 
be multi-thousands of both ground and maritime and some air 
forces.
    Now, the last category is humanitarian. I think the best 
example here is New Horizons, which is a humanitarian exercise. 
We try to do, our goal is to do six a year, six New Horizons. 
What does it consist of? It lasts for about three months, and 
it is a training event for our forces where engineers and 
others build construction projects. It may be they build a 
community center, a three-room school. They build a medical 
clinic somewhere in an underprivileged rural area in some 
country. Central America has received many of these. We are 
doing it in Ecuador I think this year and some other places, 
Guyana, Peru.
    These are superb exercises. They are largely manned by 
reserve components who on their two week annual training event 
rotate through and get the opportunity to do the training. We 
reach out to people who need help. This is a great opportunity. 
We conduct inside of that exercise this medical readiness. 
Again, for three months, our doctors, nurses, veterinarians, 
dentists will rotate through. Last year, I believe we reached 
out in our medical readiness exercises to about 390,000 people 
in the region.
    It is nothing fancy. They come in and they bring their 
children, and they get an assessment. They get some preventive 
medicine classes on things they can do. The kids get de-wormed 
and they get to take the medicine home to continue the 
treatments so it works for a while. They will get vitamins. 
They will get a dental check. They get what they haven't been 
able to get because of the paucity of resources and doctors 
where they live. We try to combine that with host-nation 
doctors, either military or civilian, to make it even more 
beneficial, and again to show the people that their government 
counts for something and is trying to make their life better. 
So New Horizons is exceptional.
    We also do another 50 or 60 medical readiness exercises and 
dental readiness exercises that stand alone. We just move a 
unit into a location, a hospital or a schoolhouse, and for two 
or four weeks see patients, and then we bring them back to the 
United States. So we depend on reserve components for most of 
our humanitarian exercises. That is probably the best 
engagement we have in terms of winning hearts and minds in the 
region.
    Mr. Reyes. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Another gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    General Craddock, thank you for being here today. As a side 
note, I don't read The Washington Post either. [Laughter.]
    If you covered this already before I came in, I apologize 
for that. If so, I will read the record. But Evo Morales, 
recently elected as president of Bolivia, from a public 
statement standpoint, does not appear to be necessarily 
friendly to the United States.
    Can you give us some sense of what you are seeing, as well 
put your predictability hat on and talk to us about what impact 
his regime may have on the economy of Bolivia and natural gas 
production, and just in general where do you see Bolivia going 
under his leadership?
    General Craddock. Well, it is interesting. You know, 54 
percent of the vote, which is almost unheard of, surprised 
everyone, so he definitely has a mandate compared to previously 
where there always had to be a runoff election. I would say 
that we are in a wait-and-see mode right now. Obviously, there 
was a lot of talk. Talk is cheap.
    I think we ought to focus on deeds, not words, right now. 
Let's see where it goes. Let's see how the situation develops 
in terms of we know where we have been. We know the 
relationship and what we are doing with them, which is 
significant from a mil-to-mil perspective. So I think that what 
we have to do now is continue to proceed. If there are certain 
things done or acts taken, then we need to understand the 
impact and act accordingly.
    Recently, there was a little bit of a dustup about the de-
certification of a counterterrorist unit. The deal is, you 
don't get something for nothing. We provided some equipment. We 
provided training and in return, they do certain things. They 
decided not to do certain things and we said, sorry, we can't 
do this anymore. So we have agreed they are going to return the 
equipment. They are doing that. Once, then, we can get back 
together and fix the problems that caused us not to be able to 
continue to work with them, then we can resume that.
    That is just one part of the mil-to-mil relationship. The 
rest of it is ongoing. I am optimistic that we can work through 
this. I hope that we can. I would hope that government would be 
able to fix some poverty, fix some corruption, fix some 
inequality. My concern is that if the markets are closed down, 
if the foreign direct investment does not occur, then it won't 
be generated, the needed revenue to do that.
    I have talked to our ambassador at length. We are going to 
continue to try and see what develops. We are not ready to make 
judgments yet.
    Mr. Conaway. And just quickly, any concern on your part 
with the border between Mexico and Guatemala?
    General Craddock. Indeed, a lot of concern. About a month 
ago, I went to Guatemala. I went up to the Peten area, which is 
the area with the north-south border with Mexico. It is a large 
national park, Laguna del Tigre. It has been almost overtaken 
until recently by the traffickers. Large flatlands. What they 
have been doing, the traffickers, is flying airplanes in, 
normally at night or at dusk. Because they can't see then, they 
crash-land. They don't care. They shoot up the engine or they 
torch it after they get the drugs out. Brand-new trucks, SUVs 
show up, off-load the trucks, and they scoot across the border.
    There are very few villages here, because it is a national 
park, but the villages that are there have been pretty much 
overrun by the traffickers. The Guatemalans, we work with them. 
They have moved a joint task force up there, Joint Task Force 
North. It is comprised of police, military, judicial persons, 
other interagency peoples and medical folks and others. They 
have built a crude installation there to operate out of. They 
are doing the best job they can do with what they have to do it 
with, so we are going to help them with some capabilities.
    I was there, and they told me that since their arrival, 
they had not seen any aircraft come in. There were 58 days 
without anything landing. We had a report the other day that 
one landed. They couldn't get it in time, because they didn't 
have the communications to know about it. But they are making 
an honest, fruitful effort and it is an interagency effort, 
which is a good thing. It is not all just military or all 
police. The judges are up there to make sure that there are no 
abuses. They are working at it hard.
    Mr. Conaway. Thank you, General Craddock. I appreciate your 
service.
    I yield back.
    The Chairman. I thank the gentleman.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you, General Craddock, for being here.
    General, we spoke about this yesterday, but I want to go 
once again on the record expressing my concern about raising 
the troop caps in Colombia. For a lot of reasons, including 
what the gentleman from Texas touched on, here we have a 
Bolivian government, the candidate is the head of the Cocalero 
Party. One of the things he was talking about was de-
criminalizing cocaine.
    On the other side of the world, we have, for better or 
worse, turned a blind eye to poppy cultivation in Afghanistan. 
It has skyrocketed since our guys won. About the only good 
thing the Taliban ever did was shut down the opium trade the 
last year they ran it. That is one of the reasons people turned 
on them.
    And so again, if the purpose of our involvement in Colombia 
is the drug trade, well, during the years of our involvement in 
Colombia I can tell you the drug production in my own district, 
the drugs there aren't coming from Colombia, they are made in 
South Mississippi in backyard meth labs.
    I can assure you if we are going to spend $2 billion a 
year, or whatever we are spending, on these combined wars on 
drugs, as far as the effects on the lives of people in South 
Mississippi, that money would be better spent helping out my 
local sheriffs and my local police chiefs, rather than down in 
Colombia.
    Colombia is a wealthy country. You are not going to tell me 
otherwise. It is not El Salvador. It is not Honduras. There is 
a lot of money in Colombia, and I have concerns that those 
guys, even though they are doing better, still don't try hard 
enough themselves to fight their own war.
    So I am going to give you an opportunity to tell me I am 
all wrong, that we ought to not have a troop cap; that we ought 
to get further involved. We spoke yesterday that your quick 
reaction force is down to seven special forces. They are in 
Afghanistan. They are in Iraq.
    So if you want to raise the troop cap, where in the heck 
are you going to get these guys from?
    Again, this is an open forum. I respect you. I like you. 
But I think it is a very fair question to ask of you.
    General Craddock. Thank you, Congressman.
    Everything kind of devolves down to priorities, obviously. 
Let me address the troop cap first.
    We asked for the troop cap to go up to 800. We got that. I 
think the most we have had down there over the past 2 years is 
520. Today, it is a little under 400, so it ebbs and flows. It 
depends upon what the Colombian military is doing. They are 
building some new units. What we try to do is with our planning 
and assistance teams, to marry those up at the division level. 
They have built a new Joint Task Force Caribe up north, and we 
have some folks with them.
    So we are kind of lined up with the Colombian military in 
terms of the planning assistance and how they are executing 
operations and how they are expanding to accommodate their 
requirements.
    So I will tell you the cap gives us the flexibility if 
something happens and we would need to surge for some short 
period without having to come back. I don't think that we will 
come back and ask for more and I don't think at this time that 
there is a problem with forces available other than SOF, 
special operations forces. We have taken some detriments there.
    In return, there is a plan to use reserve component SOF 
that will come out with language capability. I didn't realize 
that, but in talking to special operations command (SOCOM), 
they have some of that. So I think from a perspective, again we 
would appreciate the extension of the cap. We think that and 
the expanded authorities make sense.
    Now, with regard to Colombia, they are making progress, 
obviously. We think they are reinvesting in the country. We 
think that there is a fine line, and it is a difficult chore, 
as you know, to balance between security and development. And 
that is what they are trying to do.
    They are working the fumigation side of it, the 
eradication. Recently, because the national parks have been 
protected, you can't spray there to get to the coca plant. The 
president decided to go in and manually eradicate. They have 
taken several police casualties from that. They have been under 
attack in an area where they have never gone before. It is the 
heartland of the FARC as they grow this cocaine. So that has 
been a significant effort and change.
    But it is lucrative. The business has got so much money 
involved with it that it is going to continue. When Colombia is 
successful in the end, the problem moves somewhere else in the 
Andean ridge, whether it is Peru or Bolivia, because it is so 
lucrative. The challenge is to get it to a point where it 
doesn't become a national security problem as it has been in 
Colombia, and it can be handled by public security forces. That 
is where the foreign terrorist organizations come from. Three 
of them are in Colombia. So it is more than just drugs. It is 
terrorist organizations as defined by the State Department.
    Now, with regard to the impact we are making, Congressman, 
as I said yesterday, we got 252 tons last year interdicted, 
either got it or disrupted it and it is at the bottom of the 
sea. I don't know how to quantify that other than that is 252 
tons not in the hands of Americans because that is where it was 
coming. It didn't generate the money that would have gone into 
the hands of the traffickers to buy the weapons or to buy more 
drugs or pay for other problems in the region.
    So I think those are good things. I understand the 
priorities and I understand there are other threats with regard 
to drugs, synthetic drugs and others. This is one of those, but 
we think again, that the linchpin is Colombia for the Andean 
ridge, and the Andean ridge right now is the most unsettled 
area in this hemisphere.
    Mr. Taylor. Mr. Chairman, a quick unrelated follow-up.
    The Chairman. The gentleman may go right ahead. We are at 
the end of the hearing, and I know this is an important subject 
for him.
    Mr. Taylor. I think it is fair to say that one of the 
reasons we developed Manta was for the ability to do 
intelligence-gathering over Colombia. It is not the only 
reason, but it is one of them. I was one of the guys who went 
down looking at the potential sites when we lost Howard Air 
Force Base. And so I have seen what Manta looked like before we 
started spending money, and I know what Manta looks like now, 
and we have spent a lot of money there.
    What troubles me is what you told me yesterday, the 
possibility of losing that air strip. So my question is, either 
if you know it now or for the record, what sort of commitments 
as far as a lease did we get from the Ecuadorians?
    Because it is not just Ecuador. I see it in several places 
around the world. We go in. We build nice housing. We build a 
nice runway. We build nice hangars. The host country decides we 
should move down the street a little bit and do it again. That 
is not a good business decision, whether it is stateside, 
Germany or in Ecuador.
    So I would like to know if you know how long a lease we had 
there. I would sure as heck hope that if we are asked to leave 
Manta, that it becomes a prerequisite of conditions of wherever 
we locate next time.
    General Craddock. Fair enough. The lease in Manta expires 
in 2009. I think it was a 10-year lease. So there is an 
election in Ecuador this year. We will see how that turns out, 
and probably, we believe in talking to the State Department 
among others, that sometime in 2007 we need to approach the 
Ecuadorian government to start the negotiations for the re-
lease, the continued leasing of that facility.
    And you are right, it is exclusively negotiated, the 
agreement between Ecuador and the United States, for counter-
drug operations only. We cannot do any other operations out of 
there. When we went to Haiti, and we needed to move some 
materiel, we could not fly from Manta to Haiti. We had to stop 
en route because it would have been a violation of the 
agreement. We scrupulously adhere to those agreements, but I 
believe they are all 10-year leases. The first one, Manta, 
2009.
    Mr. Taylor. Thank you very much.
    Mr. Chairman, thanks again.
    The Chairman. I thank the gentleman.
    The gentleman from Missouri had a couple of follow-ups 
here.
    Mr. Skelton. General, would it be possible for you to 
follow up with us, preferably in written form, as to what you 
see country-by-country the involvement of China is in Latin 
America? I think that would be very helpful to this committee. 
Just what they are doing, any type of ballpark judgment on what 
they are spending and how they are spending it, we would 
certainly appreciate that. If you could get that to the 
committee, I think it would help.
    General Craddock. Yes, Congressman. Let me try to do it 
this way, by sub-region, Caribbean.
    Mr. Skelton. It would be better if you just furnish it to 
us.
    General Craddock. Oh, I can follow up with that easily.
    Mr. Skelton. That would be easier.
    General Craddock. That is fine. It is significant, there is 
no doubt about it. We will do that, and also give you an idea 
on the economic aspects that we have been tracking.
    Mr. Skelton. That would be very helpful. Thanks, General.
    The Chairman. I thank the gentleman.
    Just one follow-up here on the discussion. I think we have 
had a pretty good, wide-ranging discussion here, General 
Craddock.
    Looking at the military posture of Venezuela, is there a 
marked increase in their armed forces size and equipage? Give 
us just an idea of what they have and where it looks like they 
are headed.
    General Craddock. With regard to the active force, it has 
held constant, steady, somewhere at 70,000 to 80,000 I think is 
the number, depending on who you talk to, but that is probably 
pretty close. There has been much talk about, and we have seen 
considerable interest in activity with regard to additional 
arms purchases. Land, air and sea corvettes, small ships, I 
think there are some others that are being talked about that I 
can't discuss here. Aircraft from Russia I think has been 
negotiated back and forth. Helicopters are soon to be 
delivered.
    The Chairman. Do the aircraft include combat aircraft?
    General Craddock. Yes, indeed, fighter aircraft, high-
performance. Yes.
    I don't know that the deals have been consummated, but 
there is a lot of discussion back and forth as to what type 
aircraft that they might want. Also, aircraft purchases from 
Brazil are on the table.
    So there is a lot right now of arms acquisition 
procurement, if you will, that is being discussed, that we see 
in the open press and other places.
    Now, the active force, the military quite frankly in the 
last few years has been focused on social program support 
throughout the country. As we can see, it has not extensively 
trained in military capability. We see some indications there 
may be a shift in that in the near future with some exercises 
that have been discussed and may be on the horizon.
    Now, the other part of this is the reserve component or 
this new element that is going to stand up, which is going to 
be a national reserve, a paramilitary or home force, home guard 
maybe would be a better term. That has started in terms of 
recruitment. We see a few numbers, but we don't see anything 
near the target of two million that we have been hearing about 
and watching.
    There has also been a restructure in process. I don't know 
that it is done yet. We haven't seen it, with regard to their 
doctrine. Heretofore, much of the doctrine, much of the 
training manuals have all been U.S.-source, if you will. They 
kind of adhere to our doctrinal aspects and constructs for 
military forces. Under the current president, that has been 
shifted aside. They are developing a new doctrine for 
employment of military forces which we expect will be something 
more along a non-American, non-U.S. type construct, more 
focused on insurgent operations and defensive measures of that 
sort.
    The Chairman. Thank you very much.
    It looks like we are going to take up votes here in the 
next 5 or 10 minutes, so this is pretty good timing here. I 
appreciate the review. I think we got a good broad discussion 
with the members, and we look forward to working with you 
closely.
    General Craddock. Thank you, Mr. Chairman.
    The Chairman. Thanks for your continued service. Please let 
your personnel know what we care about them and we know that 
their job in this very important AOR is critical to our 
national security.
    General Craddock. Thank you, sir. We thank you and the 
committee for your continued support. Thank you very much.
    The Chairman. Thank you.
    The hearing is adjourned.
    [Whereupon, at 10:31 a.m., the committee was adjourned.]
?

      
=======================================================================



 
                            A P P E N D I X

                             March 16, 2006

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2006

=======================================================================




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
